                                                                             Report No. DODIG-2014-091
              FOR OFFICIAL USE ONLY

              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 3 , 2 0 1 4




                     Procedures to Ensure Sufficient
                     Rare Earth Elements for the Defense
                     Industrial Base Need Improvement




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
     The document contains information that may be exempt from
     mandatory disclosure under the Freedom of Information Act.

                    FOR OFFICIAL USE ONLY
                               FOR OFFICIAL USE ONLY




    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight of the
       Department of Defense that supports the warfighter; promotes accountabil-
       ity, integrity, and efficiency; advises the Secretary of Defense and Congress;
                                    and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Feder-
       al Government by leading change, speaking truth, and promot-
       ing excellence—a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.




                               FOR OFFICIAL USE ONLY
                                                    FOR OFFICIAL USE ONLY


                                       Results in Brief
                                       Procedures to Ensure Sufficient Rare Earth Elements for
                                       the Defense Industrial Base Need Improvement



July 3, 2014

Objective                                                Recommendations
We determined whether DoD effectively                    We recommend that the Director, Defense Logistics Agency–
planned for life-cycle sustainment of rare earth         Strategic Materials Division:
elements (REE) for the defense industrial
base (DIB).  Specifically, we determined whether            •	 develop and implement a verification and validation plan
DoD effectively implemented procedures to                      for REE supply and demand forecasting model inputs;
maintain a sufficient and available supply of
                                                            •	 develop and implement procedures to ensure that future
REEs for the DIB.
                                                               shortfall analyses compare DoD demand and supply for
                                                               REEs under the same scenarios;
Finding                                                     •	 develop and implement procedures for obtaining
DoD lacked a comprehensive and reliable                        DoD REE consumption data by leveraging Service
process to assess REE supply and demand.                       acquisition executive participation and other techniques
Specifically, Defense Logistics Agency, Strategic              as appropriate;
Materials Division officials did not ensure
that its modeling and simulation contractor                 •	 develop and implement an accreditation plan for the
used: REE supply forecasts that considered                     forecasting model’s intended use; and
market and environmental risks; complete
                                                            •	 ensure that current and future contracts for models,
REE demand survey results; and verified
                                                               simulations and associated data include verification,
economic consumption data to forecast
                                                               validation and accreditation procedures in the contract
REE demand.
                                                               requirements.

This occurred because the Defense Logistics
Agency, Strategic Materials Division did not             Management Comments and
have adequate verification and validation                Our Response
procedures in place to ensure realistic supply
                                                         The     Director,  Defense   Logistics    Agency,     Acquisition
and demand inputs and did not require that
                                                         Directorate    generally  addressed    the    recommendations;
the contractor use an accredited model to
                                                         however,   comments on Recommendation 2 partially addressed
forecast REE supply and demand.
                                                         the recommendation.  Therefore, we are requesting additional
                                                         comments on Recommendation 2 by August 4, 2014. Please
As a result, DoD may not have identified all
                                                         see the Recommendation Table on the back of this page.
REEs with expected shortfalls, increasing
the risk that those shortfalls will adversely
affect critical weapons systems production
in the DIB, and overall DoD readiness.

Visit us on the web at www.dodig.mil

                                   	                  FOR OFFICIAL USE ONLY
                                                                             DODIG-2014-091 (Project No. D2013-D000LA-0152.000) │ i
                                                    FOR OFFICIAL USE ONLY



                  Recommendations Table
                                                        Recommendations            No Additional
                              Management                Requiring Comment        Comments Required
                      Director, Defense Logistics
                      Agency–Strategic Materials    2                       1.a, 1.b, 3, 4, and 5.
                      Division

                  Please provide comments by August 4, 2014.




                                                    FOR OFFICIAL USE ONLY
ii │ DODIG-2014-091
                                FOR OFFICIAL USE ONLY



                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                  July 3, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
               	 TECHNOLOGY, AND LOGISTICS
               DEPUTY ASSISTANT SECRETARY OF DEFENSE,
               	 MANUFACTURING AND INDUSTRIAL BASE POLICY
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT:	 Procedures to Ensure Sufficient Rare Earth Elements for the Defense Industrial
          Base Need Improvement (DODIG-2014-091)

We are providing this report for review and comment. DoD lacked a comprehensive and
reliable approach to assess rare earth element supply and demand, and identify shortfalls
that could impact the defense industrial base. We considered management comments on a
draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly.  The Director,
Defense Logistics Agency, Acquisition Directorate, responded to the draft report and generally
agreed with the recommendations; however, comments on Recommendation 2 partially
addressed the recommendation.  Therefore we are requesting additional comments on
Recommendation 2 by August 4, 2014.

Please send a PDF file containing your comments to audrco@dodig.mil.  Copies of your
comments must have the actual signature of the authorizing official for your organization. We
cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff.       Please direct questions to me at
(703) 699-7331 (DSN 499‑7331).




                                           Carol N. Gorman
                                           Assistant Inspector General
                                           	 Readiness and Cyber Operations




                                FOR OFFICIAL USE ONLY
                                                                                        DODIG-2014-091│ iii
                                                   FOR OFFICIAL USE ONLY



                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Organizations With Roles or Responsibilities Related to REEs_______________________________4
                  Review of Internal Controls_____________________________________________________________________5

                  Finding. REE Supply and Demand Assessment Process
                  Not Comprehensive or Reliable____________________________________________6
                  Critical Defense Materials Assessment Process_ ______________________________________________6
                  Market and Environmental Risks Were Not Considered in Supply Forecasts_______________7
                  Incomplete Survey Results Accepted __________________________________________________________9
                  Unverified Consumption Data Used to Forecast Demand __________________________________ 10
                  Inadequate Procedures and Unaccredited Model Used to Forecast
                     Supply and Demand ______________________________________________________________________ 11
                  Shortfalls Could Adversely Affect DoD Readiness___________________________________________ 12
                  Ongoing Management Initiatives_____________________________________________________________ 13
                  Recommendations, Management Comments, and Our Response__________________________ 14

                  Appendixes
                  Appendix A. Scope and Methodology_________________________________________________________ 18
                      Use of Computer‑Processed Data________________________________________________________ 19
                      Use of Technical Assistance_______________________________________________________________ 20
                      Prior Coverage ____________________________________________________________________________ 20
                  Appendix B. Rare Earth Elements_ ___________________________________________________________ 21
                  Appendix C. Organizations With Roles or Responsibilities Related to REEs______________ 22
                  Appendix D. Quantitative Methods Division Assessment of the RAMF–SM Model _______ 25

                  Management Comments
                  Defense Logistics Agency______________________________________________________________________ 27

                  Acronyms and Abbreviations______________________________________________ 30


                                                   FOR OFFICIAL USE ONLY
iv │ DODIG-2014-091
                                            FOR OFFICIAL USE ONLY                                                               Introduction




Introduction
Objective
Our audit objective was to determine whether DoD effectively planned for
life‑cycle sustainment of rare earth elements (REE) for the defense industrial
base (DIB).1  Specifically, we determined whether DoD effectively implemented
procedures to maintain a sufficient and available supply of REEs for the DIB. See
Appendix A for a discussion of the scope and methodology and for prior audit
coverage related to the objectives.


Background
REEs consist of 17 elements—15 that form the chemical series called the lanthanides,
and 2 others—scandium and yttrium—that tend to occur in the same ore deposits
and exhibit similar chemical properties as the lanthanides. Eight lanthanides with
atomic numbers 57 through 64 are often defined as light REEs. Seven lanthanides
with atomic numbers 65 through 71 and one non‑lanthanide, yttrium, with
similar physical and chemical properties, are defined as heavy REEs.                                              The other
non‑lanthanide, scandium, does not exhibit sufficient similar physical and chemical
properties to be defined as either a light or heavy REE. Although denoted as “rare,”
REEs are relatively abundant in total quantity worldwide. However, REE deposits
are seldom found in sufficient amounts to be extracted and processed economically
(see Appendix B for a list of the 17 elements and their defense uses).


REE Commercial and Defense Applications
According to the Rare Earth Technology Alliance, REEs are vital to many
modern technologies, including consumer electronics, computers and networks,
communications, clean energy, advanced transportation, health care, environmental
mitigation, and national defense.                              Because of their unique magnetic and
electrochemical properties, REEs help DoD weapons systems perform with reduced
weight and energy consumption; or give them greater efficiency, performance,
miniaturization, durability, and thermal stability.




	1	
      The DIB is the portion of the industrial complex responsible for the design, production, delivery, and maintenance of
      military weapons systems, subsystems, and components or parts that fulfill U.S. military requirements.




                                            FOR OFFICIAL USE ONLY
                                                                                                                              DODIG-2014-091│ 1
Introduction                                           FOR OFFICIAL USE ONLY



                                                                      For example, dysprosium and neodymium
                                                                      are used in the targeting capabilities of
                                                                      the Joint Direct Attack Munition.  The
                                                                      Joint     Direct       Attack     Munition        is    a
                                                                      low‑cost      guidance      kit     that        converts
                                                                      existing unguided “dumb” bombs into
                                                                      accurately         guided,          near‑precision,
                                                                      “smart” weapons.  The munition’s tail
                                                                      fin assembly control motor actuators
                                                                      contain neodymium‑iron‑boron  magnets
                 Joint Direct Attack Munition
                 Source: www.boeing.com                               that     direct    the     bomb      precisely         to
                                                                      its target.        Dysprosium is added to
               enhance the ability of the magnets to maintain their magnetic properties at
               high temperatures.


               REE Supply Chains
               In general, the REE supply chain consists of ore mining, separating the ore into
               individual rare earth oxides (REOs), refining REOs into metals, forming the metals
               into alloys, and manufacturing the alloys into end‑use items.                          REE supply chains
               are spread around the world, and may have more than 10 steps from ore mining to
               final end‑use items.

               From the mid‑1960s through the 1980s, the United States was the world’s leader
               in REO production.          However, since that time, China took advantage of lower labor
               costs and lower environmental standards to develop and expand its REO mining,
               refining, and manufacturing supply chain capabilities. According to the Government
               Accountability Office, 97 percent of the world’s REO production came from China
               in 2009.  By contrast, U.S. REO production and other supply chain capabilities
               had diminished to the point where it was virtually 100 percent dependent on
               REE imports.


               Congressional Directives to Address DoD REE Availability
               In FY 2011, Congress took action to address REE availability concerns, given
               China’s    dominance         in    REE    supply   chain      capabilities.    Specifically,      in     Public
               Law     111‑383,       “The       Ike    Skelton   National     Defense       Authorization        Act        for
               Fiscal Year 2011,” Section 843, “Assessment and Plan for Critical Rare Earth




                                                       FOR OFFICIAL USE ONLY
2 │ DODIG-2014-091
                                         FOR OFFICIAL USE ONLY                                                               Introduction



Materials         in    Defense        Applications,”         January       7,    2011,      Congress         directed
DoD to assess the supply and demand for REEs in defense applications and
identify REEs that met both of the following criteria:

             •	 the REE is critical to the production, sustainment, or operation of
                 significant U.S. military equipment; and

             •	 the REE is subject to interruption of supply, based on actions or events
                 outside the control of the U.S. Government.

For REEs that met the criteria, Congress directed DoD to develop a plan that
would ensure a U.S. supply by December 31, 2015.                                 Congress also directed that
the plan include consideration of risk mitigation methods for those specific REEs,
including stockpiling, substitution, and industry subsidies.

In Public Law 112‑81, “The National Defense Authorization Act for Fiscal
Year 2012,” Section 853, “Assessment of Feasibility and Advisability of Establishment
of Rare Earth Material Inventory,” December 31, 2011, Congress required DoD to
assess the feasibility and advisability of establishing a REE inventory to ensure their
long‑term availability.             House of Representatives Conference Report, HR 112‑329,
December 12, 2011, accompanied Public Law 112‑81, and required DoD to
submit a report on the feasibility and desirability of recycling, recovering, and
reprocessing REEs from fluorescent lighting in DoD facilities, batteries, certain
magnets used in weapons systems, and commercial off‑the‑shelf items such as
computer hard drives.


DoD Response to Congressional Directives Addressing
REE Availability
In response to the FY 2011 and FY 2012 National Defense Authorization Acts, the
Office of the Secretary of Defense submitted the following reports:

             •	 “Report to Congress on Rare Earth Materials in Defense Applications,”
                 March 2012 (843 Report), stated that by 2013, U.S. REE production
                 could      satisfy     the    level     of    consumption          required       to    meet        DoD
                 procurement needs for six of the seven REEs that met the two
                 congressionally mandated assessment criteria,2 the single exception
                 being yttrium.  DoD also stated that it would pursue a three‑pronged

	2	
      The seven REEs that met the criteria were dysprosium, erbium, europium, gadolinium, neodymium, praseodymium,
      and yttrium.




                                         FOR OFFICIAL USE ONLY
                                                                                                                           DODIG-2014-091│ 3
Introduction                                                 FOR OFFICIAL USE ONLY



                                   approach to addressing REE availability: diversification of supply, pursuit
                                   of substitutes, and reclamation of waste.

                               •	 “Report to Congress on Assessment of Feasibility and Advisability of
                                   Establishment of Rare Earth Material Inventory,” September 2012
                                   (853 Report), stated that DoD did not identify rare earth material
                                   shortfalls at the mining and oxide production level.3                                 However, gaps in
                                   the manufacturing supply chains for certain REEs prompted DoD to
                                   recommend solutions to address potential supply vulnerabilities for two
                                   REEs—ultra pure yttrium oxide and dysprosium metal.

                               •	 “Report on Feasibility and Desirability of Recycling, Recovery, and
                                   Reprocessing Rare Earth Elements,” September 2012, stated that the
                                   recycling of linear fluorescent lighting (yttrium, europium, terbium)
                                   and nickel metal hydride batteries (neodymium) was technically
                                   feasible and desirable.

                 The       Defense         Logistics       Agency,        Strategic       Materials        Division        (DLA–SM)           was
                 responsible for preparing assessments that supported the reports.                                              For the 843
                 and 853 Reports, DLA–SM used the same assessment process it used to support
                 routine biennial reports to Congress covering strategic and critical materials, but
                 expanded its coverage to include additional REEs.                                     For example, in the report,
                 “Strategic         and      Critical      Materials        2013       Report        on     Stockpile        Requirements,”
                 January 2013, DLA–SM included 16 REEs in their evaluation of 76 materials to
                 determine whether the materials would exhibit shortfalls in the context of a
                 congressionally mandated conflict scenario.                                As a result of DLA–SM’s work in
                 supporting the 2013  report, DoD recommended that Congress authorize the
                 FY  2014 acquisition of specific materials to mitigate the shortfalls. In the FY  2014
                 National Defense Authorization Act, Congress authorized the acquisition of
                 dysprosium and yttrium.


                 Organizations With Roles or Responsibilities
                 Related to REEs
                 Several DoD, U.S. Government, and private organizations have roles or responsibilities
                 related to the assessment or production of REEs, including the Under Secretary
                 of Defense for Acquisition, Technology and Logistics (USD[AT&L]); the Office of

                 	3	
                       The shortfall of yttrium identified in the 843 Report was not identified at the mining and oxide production level because
                       supply sources were expanded to include foreign supply.




                                                             FOR OFFICIAL USE ONLY
4 │ DODIG-2014-091
                             FOR OFFICIAL USE ONLY                                            Introduction



the Deputy Assistant Secretary of Defense for Manufacturing and Industrial Base
Policy (DASD[MIBP]); DLA–SM; DLA–SM’s modeling and simulation contractor,
the Institute for Defense Analyses (IDA); the U.S. Geological Survey (USGS);
and Molycorp, Inc. (Molycorp).      See Appendix C for more detailed information
about these organizations.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses related to the assessment of REE supply and demand for
defense applications.  Specifically, DoD lacked a comprehensive and reliable
approach to assess REE supply and demand. We will provide a copy of the report
to the senior official responsible for internal controls in the Defense Logistics Agency.




                             FOR OFFICIAL USE ONLY
                                                                                            DODIG-2014-091│ 5
Finding                                        FOR OFFICIAL USE ONLY



                 Finding
                 REE Supply and Demand Assessment Process Not
                 Comprehensive or Reliable
                 DoD lacked a comprehensive and reliable process to assess REE supply and
                 demand.  Specifically, DLA–SM officials did not ensure that its modeling and
                 simulation contractor used:

                         •	 REE supply forecasts that considered market and environmental risks;

                         •	 complete REE demand survey results; and

                         •	 verified economic consumption data to forecast REE demand.

                 This occurred because DLA–SM did not have adequate verification and validation
                 procedures in place to ensure realistic supply and demand inputs and did not require
                 that the contractor use an accredited forecasting model to forecast REE supply and
                 demand. As a result, DoD may not have identified all REEs with expected shortfalls,
                 increasing the risk that those shortfalls will adversely affect critical weapons systems
                 production in the DIB, and overall DoD readiness.



                 Critical Defense Materials Assessment Process
                 The Strategic and Critical Material Stock Piling Act (section 98, title 50,
                 United States Code), as amended through Public Law 112‑239, “The National
                 Defense Authorization Act for Fiscal Year 2013,” January 2, 2013, requires the
                 Secretary of Defense to submit to Congress, on a biennial basis, a report on
                 stockpile requirements for strategic and critical materials. Specifically, the Secretary
                 is to recommend what strategic and critical materials should be stockpiled by
                 the DoD to preclude a costly and dangerous dependence upon foreign sources of
                 supply of such items.  Critical materials requirements are based on national
                 emergency planning assumptions of a military conflict scenario, consistent with the
                 scenario used by the Secretary of Defense for budgeting and defense planning
                 purposes.  USD(AT&L), as the National Defense Stockpile Manager, is the signatory
                 authority for congressional reporting on strategic and critical materials.     DLA–SM,
                 as the executive agent of the National Defense Stockpile Manager, performs critical




                                               FOR OFFICIAL USE ONLY
6 │ DODIG-2014-091
                                            FOR OFFICIAL USE ONLY                                                                    Finding



materials assessments in support of the biennial requirements reports. To support
the FY 2011 and 2013 requirements reports, and the 843 and 853 Reports, DLA–SM
used the following process to assess critical materials:

              •	 identify materials from a “watch list” for comprehensive assessment;

              •	 estimate         DoD       supply        and      demand          for     identified      materials    to
                  determine shortfalls;

              •	 assess supply chains for impact on identified materials;

              •	 identify and prioritize mitigation options for materials determined to
                  have shortfalls; and

              •	 recommend the most promising mitigation solutions.

DLA–SM           contracted         with      IDA      to     perform         analyses       in       support   of   these
assessments, including IDA’s use of various econometric                                     4
                                                                                                and scenario models
in what it called the Risk Assessment and Mitigation Framework for Strategic
Materials (RAMF–SM) to estimate DoD supply, demand, and shortfalls for critical
materials, including REEs.                     However, according to IDA, there was considerable
uncertainty attached to REE shortfalls because available data on REE demand is
inconsistent and REE supply is dynamic.                                 Therefore, it is critical for DLA–SM
to ensure that IDA incorporates procedures to mitigate uncertainties with the
supply and demand data IDA used in the RAMF–SM to determine REE shortfalls.


Market and Environmental Risks Were Not Considered
in Supply Forecasts
DLA–SM’s contractor, IDA, did not adequately assess market and environmental
risks that could adversely affect REE production data forecasts used to
estimate          future      REE       supplies.        DoD       Instruction           5000.61,       “DoD     Modeling
and       Simulation          (M&S)        Verification,         Validation,        and      Accreditation       (VV&A),”
December 9, 2009, requires DoD Components to ensure that data used in
models and simulations the DoD Component develops or modifies are validated
throughout their lifecycle.                 The Instruction defines data validation as the process
of validating that data accurately represents “real  world” conditions.                                         IDA based
future REE supply estimates primarily on forecasts made by a U.S. producer,
Molycorp.          According to its 2010 Annual Report, Molycorp stated it was the only
known U.S. producer and holder of REEs and forecasted that it would achieve

	4	
      Econometrics is the use of statistical and mathematical models to quantify economic activity.


                                            FOR OFFICIAL USE ONLY
                                                                                                                             DODIG-2014-091│ 7
Finding                                                      FOR OFFICIAL USE ONLY



                 full production capacities of REOs at its mining and separation facility in
                 Mountain Pass, California, in two phases:

                               •	 Phase I – 19,050 metric tons (MTs) per year by the end of 2012; and

                               •	 Phase II – 40,000 MTs per year by the end of 2013.

                 (FOUO) Molycorp also stated in its 2010 Annual Report that multiple “real world”
                 market, environmental, and other risks could have a material impact on the
                 company’s financial condition or operations. For example, Molycorp stated that the
                 actual funding required to expand and modernize its Mountain Pass facility might
                 vary materially from estimates and that additional funding may not be available.
                 As a result, delays in completing these improvements would have a material
                 adverse effect on business and financial conditions, which in turn could adversely
                 affect production capacity.                     According to the 843  Report working paper, IDA
                 acknowledged supply risks associated with Molycorp’s Mountain Pass REE output
                 projections and the mid‑ and long‑term viability of the Mountain Pass operation.
                 However, IDA estimated REE production capacities based on the 2010  forecasts
                 without considering the potential impact of these risks on REE supply availability.

                 DLA–SM expected that DoD would acquire REE supply inventories under the
                 Defense Production Act of 19505 in the event of an emergency and allowed the
                                         use of production capacity versus actual production or other
                                                      realistic means when estimating future REE supplies.
                                 DLA–SM                     The Defense Production Act allows for the use of
                           . . . allowed the                   production capacity when evaluating materials the
                          use of production                      President may consider diverting from ordinary use
                       capacity versus actual
                                                                  to national defense purposes, but best practices
                         production or other
                        realistic means when                      dictate that production capacity estimates should
                          estimating future                      be realistic. Realistic estimates would consider the
                            REE supplies.                     developmental status of the Molycorp production
                                                          capacity and the volatility of the REE market. Therefore,
                                                DLA–SM          personnel          should       have       ensured         that     IDA      not
                 only identified, but also analyzed, mitigated, and tracked the risks that could
                 adversely affect production capacity forecasts for REOs.                                     The “Risk Management
                 Guide for DoD Acquisition,” Sixth Edition, August 2006, provides best practices

                 	5	
                       Public Law 81‑774, codified with amendments at section 2061, title 50, United States Code. The Defense Production Act
                       authorizes the President to divert certain materials and facilities from ordinary use to national defense purposes when
                       national defense needs cannot otherwise be satisfied in a timely fashion. It also states that to ensure adequate production
                       capacity and supply, Components responsible for defense acquisition should continually evaluate the availability of
                       adequate production sources, including materials.



                                                             FOR OFFICIAL USE ONLY
8 │ DODIG-2014-091
                             FOR OFFICIAL USE ONLY                                              Finding



for assessing risks identified by decision makers.  This applies to the  RAMF–SM
model because shortfalls identified could be mitigated through the acquisition of
REEs. The guide identifies the need for a realistic, achievable, and measurable risk
management plan to address the root cause or risk to be considered in decision
making.    DLA–SM should ensure its contractors incorporate practices in the Risk
Management Guide when assessing production data subject to uncertainty.            In
addition, DLA–SM should use probabilistic tools as part of risk analysis and risk
mitigation procedures to account for supply data uncertainties.

(FOUO) In addition, in supporting the 843 Report, IDA compared REE supply
estimates based on production capacity (based on the Defense Production
Act) to REE demand estimates based on Fiscal Years Defense Plan (peacetime)
demand.    This comparison resulted in underestimated REE shortfalls because IDA
compared contingency supply to peacetime demand.  DLA–SM should ensure that
future shortfall analyses compare DoD demand and supply for REEs using the
same scenarios.


Incomplete Survey Results Accepted
DLA–SM personnel did not adequately verify the completeness and consistency
of REE demand data it received from the Services and provided to IDA.  DoD
Instruction  5000.61 requires DoD Components to ensure that data used in models
and simulations are verified throughout their lifecycle. The Instruction defines data
verification as the process of verifying the internal consistency and correctness
of data.   As part of its assessment of DoD REE demand, DLA–SM surveyed the
Services on the types and quantities of critical REEs they use in various defense
system applications.    In that survey, DLA–SM requested that the Services focus
on their top three systems for which the REEs were critical to production,
sustainment, or operation of the system.        However, the Services’ responses to
nine questions covering specific REEs and their quantities were incomplete, or
inconsistently reported.   For example, the Navy’s survey response to a question
requesting both the number and the quantities of REEs in a defense system only
listed the REEs but not the quantities.      DLA–SM provided the survey results to
IDA and neither DLA–SM nor IDA adequately followed up with the Services to
obtain more accurate or complete data.




                             FOR OFFICIAL USE ONLY
                                                                                        DODIG-2014-091│ 9
Finding                                          FOR OFFICIAL USE ONLY



                 DLA–SM      accepted    incomplete      REE    survey     results   because     it   anticipated
                 complete data would be too difficult or costly to retrieve.  DLA–SM personnel
                 stated they used the best available REE usage data and that they were limited in
                 obtaining more data on DoD REE usage because:

                          •	 the Services did not have sufficiently detailed information readily
                             available concerning REE usage within their specific defense systems;

                          •	 changes in DoD acquisition strategy no longer require contractors to
                             provide details on what materials are included in the weapon system
                             components so the Services would have to pay contractors for this data;

                          •	 contractors in the REE supply chain are reluctant to provide what they
                             see as proprietary data; and

                          •	 they did not have the resources (personnel, funding, and time) to obtain
                             the REE usage for every weapon system.

                 However, without adequate follow-up, DLA–SM could not be sure which, if any,
                 of these limitations applied to the inaccurate, incomplete, or inconsistent data
                 reported.       Implementing better methods, such as improving coordination with
                 Service acquisition executives, or elevating data requests to the USD(AT&L)
                 level, will help DLA–SM to obtain more complete, consistent, and relevant
                 DoD REE demand data for weapons systems.


                 Unverified Consumption Data Used to
                 Forecast Demand
                 (FOUO) IDA did not verify the economic consumption data it used in the
                 RAMF–SM to estimate DoD REE demand, as required by DoD Instruction
                 5000.61. For example, IDA used USGS’s estimate of total U.S. REE consumption by
                 individual REEs—19,610 MTs in 2010—as the basis for estimating DoD REE
                 demand in support of the 843 Report and to forecast DoD REE procurement
                 demand for the years 2011–2015 (see table below).

                 (FOUO) Table. REE Procurement Demand Estimates* — 2011 to 2015 (in MTs)
                         2011                2012                2013                2014              2015
                        519.58              467.74              465.70               467.72            470.76
                       (FOUO)               (FOUO)              (FOUO)               (FOUO)           (FOUO)
                 *Estimates are RAMF–SM model outputs for DoD REE consumption for purposes of procurement. (FOUO)




                                                 FOR OFFICIAL USE ONLY
10 │ DODIG-2014-091
                                         FOR OFFICIAL USE ONLY                                                                         Finding



However, IDA did not verify the internal consistency and correctness of the
USGS‑provided data. When asked, USGS could not provide information supporting
the methodology used to calculate the individual REE U.S. consumption amounts
for 2010.         A USGS representative stated that the analyst who calculated DoD
REE consumption for 2010 left the agency, but the representative stated that
generally, an analyst uses professional judgment and reviews information obtained
from several sources to determine the individual REE consumption amounts.

Additionally,         DLA–SM          did      not       ensure        that      IDA       requested         supporting
documentation for USGS REE consumption data.                                  DLA–SM contracted with USGS
to provide  REE economic consumption data in support of DoD’s biennial reporting
requirement          to    Congress         on  strategic         and      critical     materials        requirements.
According to DLA–SM and USGS officials, the economic consumption data was to
be given directly to IDA for use in the RAMF–SM model. Although USGS is a widely
recognized authority in matters pertaining to minerals, this did not preclude
DLA–SM or IDA from obtaining support to verify USGS data and the methodology used
to develop the data. DLA–SM should develop and implement procedures to verify
consistency and correctness of the data used to estimate DoD REE consumption.


Inadequate Procedures and Unaccredited Model Used
to Forecast Supply and Demand
As stated in the previous sections, DLA–SM needs to improve its procedures
for verifying and validating supply and demand inputs that are used in the
RAMF–SM           model.        Additionally,        DLA–SM         should       require       the     modeling         and
simulation contractor to use an accredited model to identify REE shortfalls.
DoD Instruction 5000.61 states that the Defense Logistics Agency, as a DoD
Component Head, shall assign responsibilities to ensure that models, simulations,
and their associated data that are used by DLA are accredited for their intended
use.     According to the Instruction, accreditation is the official certification that a
model or federation of models6 and associated data are acceptable for a specific
purpose.          The accreditation process includes identifying model assumptions,
capabilities, limitations, risks, and impacts.  The process also includes an
assessment that focuses on how well the model meets acceptability criteria.7  The
assessment includes the qualitative and quantitative metrics used to measure the

	6	
    Military Standard 3022, “Department of Defense Standard Practice: Documentation of Verification, Validation, and
    Accreditation (VV&A) for Models and Simulations,” January 28, 2008, defines a federation of models and simulations as a
    system of interacting models, simulations, and a supporting infrastructure that are based on a common understanding of
    the objects portrayed in the system.
	7	
    The acceptability criteria are a set of standards that a model will meet to be accredited for a specific purpose.



                                         FOR OFFICIAL USE ONLY
                                                                                                                              DODIG-2014-091│ 11
Finding                                       FOR OFFICIAL USE ONLY



                                       acceptability criteria success.  This assessment forms the
                         DLA-SM           basis for the accreditation recommendation forwarded to
                          did not          the accreditation authority.   However, DLA–SM did not
                      accredit the
                                           accredit the RAMF–SM for its intended purpose—to assess
                      RAMF-SM for
                       its intended        supply and demand of REE to identify REE shortfalls,
                         purpose.          and prioritize and recommend REE mitigation actions.
                                         Specifically, DLA–SM could not provide documentation that
                                      an accreditation assessment was performed, accreditation
                 authority was assigned, and accreditation decision was obtained for the RAMF–SM.

                 To ensure that an accredited model is used, DLA–SM needs to include accreditation
                 requirements in the contract for the RAMF–SM model.        Military Standard 3022,
                 “Department of Defense Standard Practice: Documentation of Verification, Validation,
                 and Accreditation (VV&A) for Models and Simulations,” January 28, 2008, states
                 that DoD Components may cite the standard as a contractual requirement in
                 contracts, requiring the documentation of procedures to support the accreditation,
                 verification, and validation of models and associated data. DLA–SM contracted with
                 IDA to develop processes for the RAMF–SM to assess DoD REE supply and demand,
                 identify REE shortfalls, and provide mitigation options.     However, DLA–SM did
                 not ensure that IDA obtained accreditation for the RAMF–SM, as required.
                 DLA–SM personnel stated that they were unaware of DoD requirements for
                 the accreditation of models and associated data, but that some of the models
                 used in the RAMF–SM were included in the Defense Modeling and Simulation
                 Coordination Office (M&SCO) catalog of models.  However, according to the
                 DoD M&SCO, inclusion in the catalog does not mean that required accreditation
                 procedures for models were completed. DLA–SM should incorporate requirements
                 for accreditation of the RAMF–SM model and associated data for its intended use
                 into the contract with IDA. Additionally, future modeling and simulation contracts
                 should include accreditation requirements to ensure that modeling results are
                 useable for their intended purpose.


                 Shortfalls Could Adversely Affect DoD Readiness
                 DoD may not have identified all REEs with expected shortfalls, increasing
                 the risk that those shortfalls will adversely affect critical weapons systems
                 production in the DIB, and overall DoD readiness.  Because DLA–SM relied
                 upon overstated REE supply quantities and incomplete and unverified REE




                                              FOR OFFICIAL USE ONLY
12 │ DODIG-2014-091
                                         FOR OFFICIAL USE ONLY                                                                         Finding



demand data in an unaccredited model to assess the supply and demand for
REEs, it may have underestimated the number of individual REEs requiring
mitigation action to ensure their availability for weapons systems production.

Erroneous shortfall estimates may adversely affect REE mitigation actions.  For
example, USD(AT&L) used the results of IDA’s analysis to support the 843 Report
to Congress. In that report, DoD stated that only yttrium would have an estimated
shortfall for 2013.8 In another example, based on IDA’s analysis in support of the
2013  requirements report, Congress authorized the FY  2014 acquisition of
quantities of dysprosium and yttrium to mitigate shortfalls in the event of an
emergency.           Given the deficiencies identified in this report, decisions made
based on IDA’s analyses, DLA–SM conclusions resulting from those analyses,
and USD(AT&L)’s reporting; mitigation actions may be inappropriate or ineffective
to meet all REE shortfalls.


Ongoing Management Initiatives
DLA–SM has completed various studies, analyses, and other actions as part of
its plan to ensure a source of supply for REEs in critical defense applications by
December 31, 2015. Specifically, DLA–SM is working independently or with
DASD(MIBP) to:

            •	 develop a National Defense Stockpile Management Plan for all stockpile
                reports,       including        the      biennial       requirements           reports        and      other
                congressional reports;

            •	 develop, for FY 2014 implementation, a web‑based system9 to allow
                users to visually map REE supply chains and identify “gaps” or other
                issues with them;

            •	 expand the RAMF–SM to include steps for assessing shortfall risks,
                identifying and prioritizing mitigation options, and recommending REE
                acquisitions; and

            •	 contract          with       various         academic,          governmental,            and       industry
                components to assess REE issues across entire supply chains, including
                potential        domestic          sources,        new        processing          technologies,          and
                geographically economical supply chains.



	 8	
    Although IDA’s analysis also identified a shortfall in another critical REE—erbium—USD(AT&L) incorrectly reported a surplus
    in the 843 Report. Erbium is used in high performance fiber optics communications systems.
	9	
    The Strategic Materials Analysis and Reporting Topography system.

                                         FOR OFFICIAL USE ONLY
                                                                                                                              DODIG-2014-091│ 13
Finding                                        FOR OFFICIAL USE ONLY



                 While these actions may aid in ensuring a source of supply for REEs, DLA–SM
                 needs to implement procedures to ensure that reliable supply and demand data
                 are used in the RAMF–SM to determine REE shortfalls.               In addition, DLA–SM
                 needs to ensure that the RAMF–SM is accredited for its intended use.


                 Recommendations, Management Comments, and
                 Our Response
                 We recommend that the Director, Defense Logistics Agency, Strategic Materials
                 Division, develop and implement:

                       1.	   A verification and validation plan for Risk Assessment and Mitigation
                             Framework for Strategic Material REE data inputs, in accordance
                             with DoD requirements.  The plan should include procedures to:

                               a.	 Analyze, mitigate, and track risks that could adversely affect
                                   REE supply data inputs, through the use of probabilistic tools
                                   in the analysis and mitigation procedure steps.

                 Defense Logistics Agency Comments
                 The Director, Defense Logistics Agency, Acquisition Directorate agreed, stating
                 that by September 30, 2014, DLA will complete a verification, validation, and
                 accreditation action plan with appropriate milestones for formal verification,
                 validation, and accreditation plans and reports.       To that end, DLA will meet with
                 the DoD M&SCO to discuss recommendations and guidance for the verification,
                 validation, and accreditation of future DLA studies and reports, which will include the
                 use of probabilistic tools in the analysis and mitigation steps.


                 Our Response
                 Although comments from the Director did not specifically address implementation
                 of a verification and validation plan for RAMF–SM REE data inputs, the Director’s
                 comments addressed the universe of future DLA studies and reports and satisfied
                 the intent of the recommendation. No further comments are required.




                                               FOR OFFICIAL USE ONLY
14 │ DODIG-2014-091
                             FOR OFFICIAL USE ONLY                                           Finding



             b.	 Verify the consistency and correctness of REE consumption
                 data inputs.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency, Acquisition Directorate agreed, stating that
DLA will work with the USGS to develop and implement procedures to verify the
quality of available data.   DLA has contacted USGS to verify the consistency and
correctness of REE data inputs to be used in future DLA studies and reports. The
Director stated that DLA will incorporate these procedures into the verification,
validation, and accreditation plan described in Recommendation 1.a.


Our Response
Comments from the Director fully addressed the recommendation.            No further
comments are required.

      2.	   Procedures to ensure that future shortfall analyses compare DoD
            demand and supply for REEs under the same scenarios.

Defense Logistics Agency Comments
(FOUO) The Director, Defense Logistics Agency, Acquisition Directorate partially
agreed with our recommendation.       The Director agreed that demand and supply
analysis should follow consistent procedures and adhere to the same scenarios
to provide the most accurate assessment of the REE supply chain.        However, the
Director stated that DLA will continue to compare demand and supply for REEs
under the same scenarios by recognizing that the Defense Priorities and Allocation
System (DPAS) can be invoked for production capacity during both peacetime and
conflict conditions. He also stated that approximately 300,000 DoD contracts and
purchase orders annually include DPAS ratings that can be invoked to ensure that
these orders receive priority acceptance and performance, and therefore it
was appropriate to use estimates of rare earth production capacity to estimate
supply available to the Department during both peacetime conditions and
conflict contingencies.


Our Response
Although the Director agreed that demand and supply analysis should follow
consistent procedures, his comments did not address the market risks discussed
in the report. For example, if the DPAS is invoked, the supplier must reject orders
they cannot fill by the date specified.   If the capacity-based production quantities



                             FOR OFFICIAL USE ONLY
                                                                                    DODIG-2014-091│ 15
Finding                                        FOR OFFICIAL USE ONLY



                 are not realistic, as discussed previously, there is a greater likelihood that the
                 orders could be rejected and the need not filled. Additionally, if DLA uses a scenario
                 where supply quantities are increased because the DPAS can be invoked; for
                 comparison purposes, DLA should also use the same scenario for the demand
                 quantities—increasing the demand to a level that would require the DPAS to
                 be invoked, not standard peacetime demand quantities.          We request that the
                 Director, Defense Logistics Agency, Acquisition, provide additional information
                 that shows how the current methodology considers market risks and produces
                 realistic, achievable production levels to meet REE demand.

                       3.	   Procedures for obtaining DoD REE consumption data leveraging
                             Service acquisition executive participation or other techniques
                             as appropriate.

                 Defense Logistics Agency Comments
                 The Director, Defense Logistics Agency, Acquisition Directorate agreed with our
                 recommendation, stating DLA will develop procedures for obtaining DoD  REE
                 consumption data and will request that any lack of responses be elevated
                 to the USD(AT&L) to obtain Service acquisition executive participation by
                 September 30, 2014. The Director stated that these procedures will be presented
                 at the next Strategic Materials Protection Board.      The Director noted that even
                 a complete set of survey results for all major DoD systems would not be able to
                 provide DLA with the comprehensive and robust set of demand estimates that the
                 RAMF–SM demand estimation methodology provides. Specifically, he stated that REE
                 content in final systems would not include raw material lost in the manufacturing
                 of a system or material required by the DIB for use in production facilities to
                 manufacture defense systems.


                 Our Response
                 Comments from the Director fully addressed the recommendation.            No further
                 comments are required.

                       4.	   An accreditation plan for the Risk Assessment and Mitigation
                             Framework for Strategic Materials to ensure it is appropriate for its
                             intended use, in accordance with DoD requirements for modeling
                             and simulation and associated data.




                                               FOR OFFICIAL USE ONLY
16 │ DODIG-2014-091
                            FOR OFFICIAL USE ONLY                                             Finding



Defense Logistics Agency Comments
The Director, Defense Logistics Agency, Acquisition Directorate agreed with our
recommendation, stating that as indicated in his comments to Recommendation  1,
DLA will develop plans for verification, validation, and accreditation based
on guidance from the DoD M&SCO and an understanding of USD(AT&L)’s
expectations. DLA will complete a verification, validation, and accreditation action
plan for its future studies and reports, including the RAMF–SM, by September 30, 2014.


Our Response
Comments from the Director fully addressed the recommendation.  No further
comments are required.

     5.	   Procedures to ensure that current and future contracts for models,
           simulations and associated data include verification, validation and
           accreditation procedures in the contract requirements.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency, Acquisition Directorate agreed with our
recommendation, stating that based on guidance from the DoD M&SCO and expectations
of USD(AT&L), DLA will incorporate verification, validation, and accreditation
procedures in future contracts involving modeling, simulation, and associated data, by
September 30, 2014.


Our Response
Comments from the Director fully addressed the recommendation.  No further
comments are required.




                            FOR OFFICIAL USE ONLY
                                                                                     DODIG-2014-091│ 17
Appendixes                                      FOR OFFICIAL USE ONLY



                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from May  2013 through May  2014 in
                 accordance    with    generally   accepted   government    auditing       standards.      Those
                 standards require that we plan and perform the audit to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and conclusions
                 based on our audit objectives.     We believe that the evidence obtained provides a
                 reasonable basis for our findings and conclusions based on our audit objectives.

                 We researched internal and external web‑based sources to identify DoD directives,
                 instructions, manuals, and procedures related to our audit objective, and to obtain
                 a general understanding of REEs.      We also researched the FYs 2010, 2011, 2012,
                 and 2013 National Defense Authorization Acts, specifically sections related to
                 REEs, as a basis for determining our audit scope, and to identify key players
                 at the organizational level.

                 We interviewed officials from USD(AT&L), Office of the Secretary of Defense–Cost
                 Assessment and Program Evaluation, DASD(MIPB), DLA–SM, USGS, Oak Ridge
                 National Laboratory, IDA, and Molycorp to ascertain roles and responsibilities and
                 obtain an understanding of the DoD REE demand and supply assessment process,
                 including the RAMF–SM model. We also interviewed officials from the DoD M&SCO
                 to   understand      DoD   modeling   and    simulation   verification,     validation,    and
                 accreditation processes.  We reviewed agreements between DLA–SM and IDA,
                 USGS, Department of Commerce, and Department of Energy to ascertain their
                 relationships in assessing DoD REE supply and demand.

                 During initial interviews with officials involved with REEs, and subsequent
                 review of the RAMF–SM flowchart, we determined that the RAMF–SM process,
                 with multiple models used to provide estimates for DoD REE demand and
                 supply, was in fact, a model, or federation of models, subject to DoD guidance
                 for models and simulations.




                                                FOR OFFICIAL USE ONLY
18 │ DODIG-2014-091
                              FOR OFFICIAL USE ONLY                                    Appendixes



Therefore, we determined whether DLA-SM adequately complied with DoD
Instruction 5000.61 for modeling and simulation, specifically, the verification,
validation, and accreditation of the RAMF–SM model and its associated data.  We
also obtained an IDA working paper used by DLA–SM to identify REE shortfalls
for the DIB, and report to Congress in the 843 Report. Our review of the 843  Report
working papers included our analyses of:

         •	 total U.S. REE consumption provided by USGS and used by IDA as the
            basis for estimating DoD REE demand;

         •	 domestic REE supply forecasts (at the REO level) provided by USGS,
            but based primarily on Molycorp’s 2010 forecasts of REO production
            capability; and

         •	 REE demand survey data responses from the Army, Navy, Marines, and
            Joint Staff on REE quantities in certain DoD weapons systems.

The DoD Office of Inspector General Quantitative Methods Division’s assessment
confirmed the deficiency we identified in the model’s ability to provide a range of
values for DoD REE demand and supply.  We developed our own estimate of future
REE supplies, using Molycorp’s 2013 forecast of REO production capability to
identify the potential impact of using unrealistic REE supply forecasts on REE
shortfalls.  We limited our analysis of the REE supply chain to domestic production
of REOs.  This was because of section 843’s criteria that imply an extreme supply
interruption scenario where DoD would have to rely solely on domestic sources
of REEs. In addition, DLA–SM was still refining the shortfall identification process
and developing additional steps in the RAMF–SM to identify and prioritize
mitigation options for REEs that DLA–SM identified as having shortfalls.


Use of Computer‑Processed Data
We attempted to assess the reliability of the computer-processed data supporting
estimated REE supply, demand, and shortfalls.        We determined that the process
and methodology that DLA–SM used to obtain data inputs for the RAMF–SM
model was not sufficient to support the reliability of the data outputs. We discuss
this process in the report finding.




                              FOR OFFICIAL USE ONLY
                                                                                   DODIG-2014-091│ 19
Appendixes                                    FOR OFFICIAL USE ONLY



                 Use of Technical Assistance
                 The DoD Office of Inspector General Quantitative Methods Division assisted with
                 this audit.   Specifically, Quantitative Methods Division personnel reviewed audit
                 documents; participated in audit team meetings to interview representatives
                 from DLA–SM, DASD(MIBP), and IDA; prepared a technical assessment of the
                 RAMF–SM; and advised the audit team on DoD modeling and simulation guidance
                 applicability to the audit objective. See Appendix D for the technical assessment of the
                 RAMF–SM model.


                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO) and the
                 Congressional Research Service (CRS) have issued nine reports discussing
                 REEs. Unrestricted GAO reports can be accessed at http://www.gao.gov.


                 GAO
                 GAO Report No. GAO‑10‑671R, “Rare Earth Materials in the Defense Supply
                 Chain,” April 14, 2010


                 Congressional Research Service
                 The CRS is a legislative branch agency of the Library of Congress that conducts
                 research and analysis for Congress on a broad range of issues of national policy. The
                 CRS issued a series of reports highlighting REE‑related issues and their consequences
                 for U.S. national defense.

                 Five CRS Reports, all numbered R41744 and titled, “Rare Earth Elements in
                 National Defense: Background, Oversight Issues, and Options for Congress,” dated
                 December 23, 2013, September 17, 2013, September 5, 2012, April 11, 2012, and
                 March 31, 2011

                 Two CRS Reports, both numbered R41347 and titled, “Rare Earth Elements: The
                 Global Supply Chain,” June 8, 2012, and September 30, 2010

                 CRS Report No. R42510, “China’s Rare Earth Industry and Export Regime: Economic
                 and Trade Implications for the United States,” April 30, 2012




                                              FOR OFFICIAL USE ONLY
20 │ DODIG-2014-091
                              FOR OFFICIAL USE ONLY                                                   Appendixes




Appendix B
Rare Earth Elements
REEs include the following:

    Rare Earth Element:                                 Defense Uses
                          Semiconductors and electron tubes, storage batteries, glass products,
 Cerium                   motor vehicle parts
 Dysprosium               Nuclear control rods, magnets, ceramics for electronics

 Erbium                   Communications, energy wires and cables, nonferrous (non-iron)
                          metal products, semiconductors and electron tubes
 Europium                 Nuclear control rods, lasers, phosphors for lighting and displays
                          Computer storage devices, semiconductors and electron tubes,
 Gadolinium               electro‑medical apparatus, magnetic and optical recording devices
                          Electronic components, semiconductors and electron tubes, other
 Holmium                  fabricated metal products
                          Primary ferrous (iron) metal products, petroleum refineries, storage
 Lanthanum                batteries
                          Electrometrical apparatus, communications, energy wires and cables,
 Lutetium                 semiconductors and electron tubes
 Neodymium                Magnets, lasers, capacitors
 Praseodymium             Pigment, ceramics, fiber optics, medical imaging, alloying agent
 Promethium               Compact fluorescent lamps and thickness gauges
 Samarium                 Neutron absorber for nuclear reactors, lasers, magnets, capacitors
                          Electric lamp bulbs and parts, petroleum refineries, semiconductors
 Scandium                 and electron tubes, other aircraft parts and equipment
                          Lasers, phosphors for lighting and displays, magnets, magnet or
 Terbium                  restrictive alloys
                          Semiconductors and electron tubes, other electronic components,
 Thulium                  irradiation apparatus, wiring devices
                          Communications, energy wires and cables, semiconductors and
 Ytterbium                electron tubes, primary ferrous (iron) metal products, irradiation
                          apparatus
 Yttrium                  Displays and lighting




                              FOR OFFICIAL USE ONLY
                                                                                                  DODIG-2014-091│ 21
Appendixes                                     FOR OFFICIAL USE ONLY



                 Appendix C
                 Organizations With Roles or Responsibilities
                 Related to REEs
                 Under Secretary of Defense for Acquisition, Technology
                 and Logistics
                 USD(AT&L) is the principal staff assistant and advisor to the Secretary of Defense
                 and Deputy Secretary Defense for all matters concerning acquisition, technology,
                 and logistics. USD(AT&L)’s primary responsibilities include: supervising DoD
                 acquisition; establishing policies for acquisition, developmental testing, and contract
                 administration for all DoD elements; establishing policies for logistics, maintenance,
                 and sustainment support for all DoD elements; and establishing policies for
                 maintenance of the DIB. The Secretary of Defense tasked USD(AT&L) to submit to
                 Congress a report on the supply and demand for rare earth materials in defense
                 applications and the Senate Report 111‑201 requested discussion of national security
                 issues related to rare earth materials in the supply chain.


                 Deputy Assistant Secretary of Defense for Manufacturing and
                 Industrial Base Policy
                 DASD(MIBP) establishes policies and procedures for maintenance of the DIB
                 and provides recommendations on supply chain management and supply chain
                 vulnerabilities to USD(AT&L). DASD(MIBP) also carries out activities related to
                 the Defense Production Act Committee established under the Defense Production
                 Act of 1950.     Public Law 112‑239 added responsibility for the DASD(MIBP) to
                 ensure reliable sources of materials critical to national security, including REEs.


                 Defense Logistics Agency, Strategic Materials Division
                 USD(AT&L) designated DLA–SM as the lead agency in preparing the DoD response
                 to Congress on REEs.  DLA–SM is the executive agent of the Stockpile Manager,
                 USD(AT&L). DLA–SM’s statutory mission is to implement the provisions of the
                 Strategic and Critical Materials Stock Piling Act, which includes decreasing,
                 and precluding when possible, a dangerous and costly dependency by the
                 United States on foreign or single sources for supplies of materials in times of
                 national emergencies.      USD(AT&L) tasked DLA–SM to assess the DoD supply
                 and demand for REEs, identify shortfalls for critical DoD REEs, and recommend
                 mitigation measures to address the shortfalls.



                                               FOR OFFICIAL USE ONLY
22 │ DODIG-2014-091
                            FOR OFFICIAL USE ONLY                                           Appendixes



Institute for Defense Analyses
IDA is a federally funded research and development center that analyzes national
security issues, particularly those requiring scientific and technical expertise, and
conducts related research on other national challenges.       DLA–SM contracted with
IDA to design and implement strategic materials assessment processes for biennial
National Defense Stockpile requirements reporting to Congress, and for responding to
congressional concerns over REEs. Specifically, IDA developed and used the RAMF–SM
to assess the DoD supply and demand for REEs, identify DoD REE shortfalls, and
recommend mitigation measures to address the shortfalls.

(FOUO) The RAMF–SM is a federation of several models. Specifically, IDA uses the
following models in the RAMF–SM to estimate DoD REE consumption:

        •	 (FOUO) Long‑Term Inter‑Industry Forecasting Tool:  Macroeconomic
           model of the U.S. economy that uses Council of Economic Advisors
           forecast data to forecast supply and demand for 97 industries.

        •	 (FOUO) Inter‑Industry Large‑Scale Integrated and Dynamic Model:
           Model that expands Long‑Term Inter‑Industry Forecasting Tool model
           output data to develop a forecast of supply and demand for 360 industrial
           sectors, specifically, generating end‑user civilian, regular military, export,
           and import demand, in dollars.

        •	 (FOUO) Input/Output Post Processing: Model used to determine dollar
           amounts of output from each of the 360 industry sectors.

        •	 (FOUO) Forces Mobilization Model: Scenario model that develops weapon
           requirements needed in a conflict scenario and computes the industry
           output (in dollars) required to produce them.

        •	 (FOUO) Material Demand Computation Model:  The Material Demand
           Computation Model uses historical consumption values from either the
           Department of Commerce or USGS, and data outputs from the Inter‑Industry
           Large‑Scale Integrated and Dynamic and Forces Mobilization models
           as data inputs to determine the quantities of material needed to produce
           the industrial output requirements. IDA can modify the Material Demand
           Computation Model to provide quantities of material by application
           area, or other means.




                            FOR OFFICIAL USE ONLY
                                                                                        DODIG-2014-091│ 23
Appendixes                                   FOR OFFICIAL USE ONLY



                 (FOUO) IDA uses the Stockpile Sizing Model to estimate REE supplies available
                 and compare them with REE demands to identify shortfalls. For purposes of this
                 report, we refer to the entire federation of models as the RAMF–SM model.


                 U. S. Geological Survey
                 USGS collects, monitors, analyzes, and provides scientific understanding about
                 natural resource conditions, issues, and problems.      USGS carries out large‑scale,
                 multi‑disciplinary investigations and provides impartial scientific information
                 to resource managers, planners, and other customers. DLA–SM contracted
                 with USGS to provide  REE data directly to the IDA in support of DoD’s biennial
                 reporting requirement to Congress on  strategic and critical materials  requirements.


                 Molycorp, Inc.
                 Molycorp is a U.S.‑based manufacturer of custom engineered rare earth and rare
                 metal products. It develops rare earth technology and products vital to clean energy,
                 high tech, and Defense applications and produces concentrated REOs from
                 both light and heavy rare earth minerals.        Molycorp is the largest holder of
                 rare earth deposits outside of China.  In 2008, Molycorp acquired the mining and
                 separation facility in Mountain Pass, California, the only source of REEs in the
                 United States, and in 2009, began limited REO production there.




                                             FOR OFFICIAL USE ONLY
24 │ DODIG-2014-091
                                        FOR OFFICIAL USE ONLY                                                                Appendixes




Appendix D
Quantitative Methods Division Assessment of the
RAMF–SM Model
During the audit, the DoD OIG Quantitative Methods Division, reviewed audit
documents and accompanied the audit team to briefings by DLA–SM and
IDA on the RAMF–SM model.                       IDA used the model to assess the REE shortfall
risks based on the estimated supplies and demands.

According        to    Quantitative         Methods        Division       personnel,        specific      quantitative
measures were not needed to accomplish the audit objectives; however, in
their overall analysis and interpretation, they made the following observations
related to the RAMF–SM model:

            •	 The inputs the model used were from different sources generated
               by econometric models, and do not take into consideration the data
               variability of the input sources.

            •	 The output results were generated by using a model that is deterministic
               and provides no measure of variability in forecast.

            •	 Forecast accuracy should be measured. Forecast error, forecasted versus
               actual, should be tracked and used to improve the model.

            •	 A stochastic modeling10 approach could be used to generate forecast
               estimates with prediction intervals, or quantify the probability of the
               forecast estimate.

            •	 Forecasts needed to be tracked and variances from actual used to
               measure and improve forecast accuracy.

            •	 Data inputs from experts should be managed to track and assess the
               validity and reliability of their input. Methodologies to collect and
               assimilate information provided by experts should be considered.




	10
  	 A model in which the results are determined by using one or more random variables to represent uncertainty about a
    process or in which a given input will produce an output according to some statistical distribution.



                                        FOR OFFICIAL USE ONLY
                                                                                                                         DODIG-2014-091│ 25
Appendixes                                                   FOR OFFICIAL USE ONLY



                                •	 A combination of forecasting techniques, such as econometric, stochastic,
                                    and simulation-based approaches, should be considered.                                     Collection of
                                    expert opinion should be refined and quantified to the extent possible
                                    using communication techniques, such as Delphi.11

                                •	 Surveys and Delphi, if incorporated, should be web-based.




                 	11	
                        The Delphi method is a defined process that uses a panel of experts in a subject area to improve understanding of an area
                        of interest.



                                                             FOR OFFICIAL USE ONLY
26 │ DODIG-2014-091
                 FOR OFFICIAL USE ONLY   Management Comments




Management Comments
Defense Logistics Agency




                 FOR OFFICIAL USE ONLY
                                               DODIG-2014-091│ 27
Management Comments                FOR OFFICIAL USE ONLY



                 Defense Logistics Agency (cont’d)




                                   FOR OFFICIAL USE ONLY
28 │ DODIG-2014-091
                  FOR OFFICIAL USE ONLY   Management Comments



Defense Logistics Agency (cont’d)




                  FOR OFFICIAL USE ONLY
                                                DODIG-2014-091│ 29
Acronyms and Abbreviations                         FOR OFFICIAL USE ONLY



                 Acronyms and Abbreviations
                      DASD(MIBP) Deputy Assistant Secretary of Defense, Manufacturing and Industrial Base Policy
                              DIB Defense Industrial Base
                         DLA–SM Defense Logistics Agency, Strategic Materials Division
                             DPAS Defense Priorities and Allocation System
                              IDA Institute for Defense Analyses
                              MT Metric Ton
                          M&SCO Modeling and Simulation Coordination Office
                       RAMF–SM Risk Assessment and Mitigation Framework for Strategic Materials
                              REE Rare Earth Element
                              REO Rare Earth Oxide
                       USD(AT&L) Under Secretary of Defense, Acquisition, Technology and Logistics
                            USGS U.S. Geological Survey




                                                   FOR OFFICIAL USE ONLY
30 │ DODIG-2014-091
                   FOR OFFICIAL USE ONLY



           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            Media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                      Reports Mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                          DoD Hotline
                         dodig.mil/hotline




                   FOR OFFICIAL USE ONLY
        FOR OFFICIAL USE ONLY
        FOR OFFICIAL USE ONLY




D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098

        FOR OFFICIAL USE ONLY
